   United States Department of Agriculture
   Office of Inspector General




Procurement Oversight Audit of the Invasive
Plant Research Laboratory Contract




                                             Audit Report 02703-0001-10
                                             September 2012
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250




DATE:          September 7, 2012

AUDIT
NUMBER:        02703-0001-10

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Lisa A. Baldus
               Associate Deputy Administrator
               Administrative and Financial Management

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Procurement Oversight Audit of the Invasive Plant Research Laboratory
               Contract


This report presents the results of the Procurement Oversight Audit of the Invasive Plant
Research Laboratory Contract awarded by the Agricultural Research Service (ARS) to
SheltonDean, Inc. Your response to the official draft is included in its entirety as an exhibit to
this report.

Regis & Associates, PC, was engaged to conduct the audit to ensure that the transparency and
accountability requirements of the Recovery Act are met and to ensure that ARS’ Recovery Act
procurement activities are performed in accordance with Federal Acquisition Regulations, Office
of Management and Budget guidance, and Recovery Act requirements. During our oversight of
the contract, we reviewed Regis & Associates, PC’s report and related documentation. Our
review, as differentiated from an audit, in accordance with Government Auditing Standards
(issued by the Comptroller General of the United States), disclosed no instances where Regis &
Associates, PC’s audit did not comply, in all material respects, with Government Auditing
Standards.

Based on your response, we were able to reach management decision on Recommendations 1
and 2. Finding 1 in this report did not contain recommendations because a similar issue was
previously reported. Therefore, no further response is necessary. Please follow your agency’s
Ed Knipling                                                                                      2

internal procedures in forwarding documentation for final actions to the Office of the Chief
Financial Officer.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Performance and
Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.

Attachment

cc: (w/attachment)
Director, Planning and Accountability Division, OCFO
DATE:            August 22, 2012

REPLY TO
ATTN OF:         02703-0001-10

TO:              Jane A. Bannon
                 Director
                 IT Audit Operations
                 Department of Agriculture, Office of Inspector General

FROM:            Regis & Associates, PC           /s/

SUBJECT:         Procurement Oversight Audit of the Invasive Plant Research Laboratory Contract

The American Recovery and Reinvestment Act of 2009 (the Recovery Act) provided the
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities critical deferred maintenance projects. On October 9, 2009,
ARS’ South Atlantic Area Office, located in Athens, Georgia, awarded a sole-source, negotiated,
firm fixed price construction contract under the 8(a) Business Development Program 1 for
$446,340 to SheltonDean, Inc. The work to be performed under this contract was to repair and
replace mechanical, electrical, and plumbing systems, and the roof of laboratory buildings at the
Invasive Plant Research Laboratory, located in Fort Lauderdale, Florida. In addition to the initial
contract award, a subsequent contract modification was made for $8,752, and increased the
contract amount to $455,092. ARS’ South Atlantic Area’s Acquisition, Procurement, and
Property Office personnel performed the procurement activities and contract management
functions, including contract award, contractor payment approval, and monitoring of the
contractor’s Recovery Act reporting. Project monitoring was performed by the contracting
officer’s representative, who is located at the project site in Fort Lauderdale, Florida. ARS’
Financial Management Division (FMD) reported the agency’s Recovery Act fund statistics on
Recovery.gov, through SharePoint. 2

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan to OMB and the Recovery page of the agency’s website.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
1
  The Small Business Administration 8(a) Business Development Program was created to assist eligible small
disadvantaged business owners to compete in the American economy through business development.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.


                                                        1
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.

To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist it in ensuring that ARS’ Recovery
Act procurement activities are performed in accordance with Federal Acquisition Regulation
(FAR), OMB guidance, and Recovery Act requirements. This audit was performed in
accordance with generally accepted government auditing standards, and standards established by
the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
South Atlantic Area Office’s organizational documents relating to management controls,
policies, and procedures for the procurement and contracting functions, financial management
system, and other processes that would ensure compliance with the Recovery Act.

The scope of this audit included a review of the justification for a sole-source acquisition
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, contract modification, performance monitoring, and invoice
processing and payments to determine whether ARS’ South Atlantic Area Office followed
Departmental and agency policies and procedures, FAR, and Recovery Act requirements. We
performed procedures, as necessary, to determine whether the contract was based on fair and
reasonable price estimates, the contract was awarded to a contractor with appropriate
qualifications, and processes were in place to ensure that the contractor provided
services/products in accordance with contract terms. We also performed a site visit to the
project, located in Fort Lauderdale, Florida to assess the project’s progress, verify that Recovery
Act funds were used for their intended purposes, and conduct interviews with the procurement
personnel at the project location that were responsible for contract monitoring. We found ARS’
contracting staff, including the contracting officer, contract specialist, and contracting officer’s
representative, were experienced and qualified to award and monitor the contract.

However, we identified three issues that warrant reporting. We determined that the contracting
officer’s representative did not fully comply with policies and procedures relating to conflict of
interest disclosure and found weaknesses in the invoice approval and payment processes. In
addition, although ARS developed new Recovery Act recipient reporting procedures, we found
an instance of inaccurate recipient reporting,3 and failure to report contractor information on
Recovery.gov for the quarters ending June 30, 2010 and September 30, 2010.




3
 This issue was previously reported to ARS in audit reports 02703-01-HQ (issued September 2010) and
02703-04-HQ (issued July 2011).


                                                       2
Finding 1: Conflict of Interest and Financial Disclosure Procedures Not Completed

The contracting officer’s representative did not complete the confidential financial disclosure
report 4 and the conflict of interest certification 5 in a timely manner. In order to avoid
involvement in a real or apparent conflict of interest, the Agriculture Acquisition Regulation
(AGAR) Advisory #85, USDA Acquisition Workforce Training, Delegation and Management
System requires that, “USDA acquisition workforce personnel must comply with existing conflict
of interest regulations/laws, and file the approved forms as required. At a minimum, all
individuals whose duties involve procurement and contracting shall file a financial disclosure
statement.” The confidential financial disclosure report and the conflict of interest certification
forms state that the forms are due within 30 days of designation as an agency representative on
any contract. The confidential disclosure report also states that, for annual filers, the report is
due no later than February 15, unless the agency grants a filing extension.

The contracting officer’s representative was assigned to this project on November 13, 2009, and
was required to have completed the annual confidential financial disclosure report before
February 15, 2009, and the conflict of interest certification by December 13, 2009.
The contracting officer's representative, who is located in Fort Lauderdale, FL, stated
that the ARS Office of Ethics, and the ARS South Atlantic Area Office, did not send him the
annual financial disclosure form to fill out in 2009. He also stated that he filled out the conflict
of interest form, which was sent to him on November 15, 2010, after construction work had been
completed and payments were already made to the contractor.

The control and oversight provided by ARS’ Office of Ethics and ARS’ South Atlantic Area
Office pertaining to the management of conflict of interest and financial disclosure policy
implementation was weak. We discussed this issue with the ARS Office of Ethics Officer who
stated that their email system failed; as a result of the system failure, many ARS personnel did
not receive email correspondence relating to their financial disclosure and conflict of interest
status. ARS officials have a responsibility to manage and implement the conflict of interest and
financial disclosure policy in order to ensure staff are filing appropriate forms timely, so any
conflict of interest can be determined when overseeing contracts, and to enhance the integrity
and transparency of the procurement functions in all ARS Area Offices.

Since the contracting officer’s representative did not complete the confidential financial
disclosure report, and the conflict of interest certification was not filed in a timely manner, ARS’
Office of Ethics had no way of determining whether the contracting officer’s representative was
involved in a real or apparent conflict of interest. This could compromise the integrity of ARS’
oversight of the contract and the transparency and accountability envisioned by the Recovery
Act.




4
  Office of Government Ethics Form, OGE 450, the Confidential Financial Disclosure Report, states that the report
should be completed on an annual basis no later than February 15.
5
  Science Ethics Branch Form, SEB 102.


                                                         3
We are not making a recommendation at this time, because a similar issue was noted in a
previous contract review.6 We recommended that ARS needs to inform all procurement
personnel to complete the required Conflict of Interest and Financial Disclosure statements
within the required timeframe, and maintain copies of these documents. ARS concurred
with our recommendation.


Finding 2: Inadequate Invoice Review Process

We noted that the invoice review process was inadequate. The appointment letter for the
contracting officer’s representative states that this official will review the contractor invoices and
make a recommendation regarding the payment of the invoices to the contracting officer. ARS’
Contracts Standard Operating Procedures, CSOP 04-002, Invoice Handling Procedures,
paragraph 4(c), requires that invoice review and recommendations should be documented. The
Procedures state that contracting officer’s representatives should “provide their recommendation
for approval or disapproval annotated on the invoice and initial and date the invoice.”

We reviewed the contract file documentation and found two paid invoices. Though project
monitoring reports were also in the contract file, we did not find evidence that the invoices were
reviewed by the contracting officer’s representative prior to the contracting office paying the
invoice. Documentation of review and approval was not available and the invoices did not
contain the contracting officer’s representative signature as required by ARS’ documented
operating procedures.

The contracting officer’s representative thought an email sufficed to show invoice approval and
provided an email string as evidence that construction progress was being monitored. ARS was
unable to provide adequate documentation to show the invoices were appropriately reviewed.
For example, the contracting officials could not provide the approved invoices or similar
documentation constituting that a sufficient review had been done. The contracting officer’s
representative stated that comments regarding invoices would only be written if there were issues
with contractors’ invoices, otherwise they were just forwarded to the contracting officer. The
contracting officer’s representative further stated the reason there were no review comments was
because there were no issues with the invoices. Since the contracting officer’s representative
relied on email rather than annotating the actual invoices, as required by CSOP 04-002, there
was no evidence that ARS’ procedures were complied with and we cannot be assured that the
invoices were properly reviewed and payment to the contractor was warranted.

Recommendation 1

ARS needs to ensure contracting officer’s representatives follow policies and procedures
currently provided when they review contractor invoices.


6
 A similar issue, Confidential Financial Disclosure statements were not completed timely, was previously reported
to ARS in audit report 02703-0002-10 (issued June 2012).


                                                         4
Finding 3: Changes in the Contracting Officer for a Contract Impacts Oversight

ARS’ South Atlantic Area Office had paid one invoice, in the amount of $245,029, 96 days after
the due date. According to the contracting officer, this was due to a personnel change in the area
office. The initial contracting officer took on a new role in the area office in February 2010. By
the time the successor took over the management of the contract and approved the invoice, the
designated timeframe for approving the contractor’s invoice had elapsed. As a result of not
paying the vendor timely, ARS incurred and paid a late payment penalty of $2,261.

FAR Part 32.904(d)(i) states that, for construction contracts, the due date for progress payments
based on contracting officer’s approval of the estimated amount and value of work or services
performed, including payments for reaching milestones in any project, is 14 days after the
designated billing office receives a proper payment request.

Also, the one contract modification made to this contract, totaling $8,752, was not funded with
Recovery Act funds, but was erroneously included in the amount reported to Recovery.gov for
the period ending March 31, 2010. The contracting officer did not adequately review and
reconcile the information reported by the contractor. The contracting officer had just been
assigned management responsibilities for the contract and did not realize that the modification,
which was awarded by the previous contracting officer, was funded with non-Recovery Act
funds. The amounts reported on Recovery.gov for contract price and disbursements was
$8,752 more than what was recorded in the financial system.

As a result of the condition noted above, the accuracy of USDA’s Department-wide totals of
Recovery Act financial and activity data for the period ended March 31, 2010 could be adversely
affected. We reviewed the contract and disbursement amounts reported on Recovery.gov for the
period ending December 31, 2010 and noted the amounts were accurately reported and agreed
with the agency’s financial system as of that date.

Recommendation 2

ARS should take the necessary action to ensure the transition of a contracting officer to/from a
position of responsibility for a contract does not affect oversight.




                                                 5
Agency’s Response




                    USDA’S


    AGRICULTURAL RESEARCH SERVICE


         RESPONSE TO AUDIT REPORT
SUBJECT:       Management’s Response to Recommendations in Audit Report 02703-0001-10 –
               Procurement Oversight Audit of the Invasive Plant Research Laboratory Contract

       TO:     Gil H. Harden
               Assistant Inspector General for Audit
               Office of Inspector General

               Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

   FROM:       Lisa A. Baldus /s/
               Associate Deputy Administrator


The Agricultural Research Service (ARS) provides the following response to audit
Recommendations 1 and 2 in Audit Report 02703-0001-10 – Procurement Oversight Audit of the
Invasive Plant Research Laboratory Contract.

Finding 1: Conflict of Interest and Financial Disclosure Procedures Not Completed

Recommendations addressed in a previous report.

Finding 2: Inadequate Invoice Review Process

Recommendation 1

ARS needs to ensure contracting officer’s (COs) representatives follow policies and procedures
currently provided when they review contractor invoices.

Agency Response

ARS is currently drafting a new standard operating procedure for processing invoices. This new
procedure will require all invoice ‘approvals’ or ‘disapprovals’ to be documented in writing. It is
estimated that this guidance will be issued in the September/October 2012 timeframe and will be
disseminated to the ARS acquisition workforce.
Gil H. Harden, et. al.                                                                           2

Finding 3: Changes in the Contracting Officer for a Contract Impacts Oversight

Recommendation 2

ARS should take the necessary action to ensure the transition of a CO to/from a position of
responsibility for a contract does not affect oversight.

Agency Response

On July 12, 2012, the ARS Head of Contracting Activity Designee (HCAD) sent a reminder to
the Business Service Center Acquisition and Property Branch Chiefs (and cc: the Business
Service Center Leadership) of their responsibility to maintain adequate and effective contract
oversight when transitioning work between COs. This email is attached to this memo.

Enclosure

cc:
M. Barnes, APD
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
